No. 19-59
In the

Supreme Court of the United States
LOOP AI LABS, INC. ET AL.

Petitioners,

v.
ANNA GATTI, ALMAVIVA S.P.A., ALMAWAVE S.R.L., IQSYSTEM INC.,
AND IQSYSTEM LLC,
Respondents.

CERTIFICATE OF COMPLIANCE

Pursuant Supreme Court Rule 33.1(h), I, Valeria C. Healy, hereby certify
that the Reply Brief in Support of Certiorari in the foregoing case contains 2,966
words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 3, 2019.
Respectfully submitted,
/s/ Valeria Calafiore Healy
VALERIA CALAFIORE HEALY
Counsel of Record
HEALY LLC
154 Grand Street
New York, NY 10013
(212) 810-0377

